ADDENDUM TO YOUR CARDHOLDER AGREEMENT
Lake Michigan Credit Union
PO Box 2848, Grand Rapids, MI 49546 - 800.242.9790
Effective Date: 10/01/2018

Prime Rate: 5.25%

Interest Rates and Interest Charges

ANNUAL PERCENTAGE RATE (APR)
1. Purchases
2. Cash Advances
Balance Transfers

3.

Prime Platinum Visa:
Variable Rate:
Max Rewards Platinum Visa:
Variable Rate:
Loan Rebate Platinum Visa:
Variable Rate:

8.25 – 16.25%
12.00 – 18.00%
10.25 – 18.00%

This APR will vary with the market based on the Prime Rate.
18.00%

Penalty APR and When it Applies

This APR may be applied to your account if your account is 60 days
past due.
How Long Will Your Penalty APR Apply? If your APRs are
increased for this reason, the Penalty APR will apply until you make
six consecutive minimum payments when due.

How to Avoid Paying Interest

Your due date is at least 25 days after the close of each billing
cycle. We will not charge you any interest on purchases if you pay
your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the
transaction date.

Minimum Interest Charge

None.

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau at https//www.consumerfinance.gov/learnmore

Fees

Annual Fee

None.

Transaction Fees
1. Balance Transfer

None.

2. Cash Advance

3% of the amount of the cash advance.

3. Foreign Transaction

1% of each transaction in U.S. Dollars

Penalty Fees
1. Late Payment

Up to $15.00 for unpaid balances up to $1,000.00
Up to $25.00 for unpaid balances of $1,000.00 and greater

2. Over-the-Credit Limit

If you opt in, $25.00.

3. Returned Payment

Up to $25.00.

SEE NEXT PAGE for more important information about your account.

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
See your account agreement for more details.
Billing Rights: Information on your right to dispute transactions and how to exercise those rights is provided in your
account agreement.
Lost or Stolen Card Replacement: First occurrence is $5.00; second occurrence is $10.00; rush card is $30.00.
Minimum Payment: Two percent (2%) of the new balance or $20, whichever is greater, plus the amount of balance that
exceeds the Credit Limit, plus any amounts past due.
Margin:
Prime Platinum Visa: Prime + 3.00% - 11.00% - ceiling 18.00%.
Max Rewards Platinum Visa: Prime + 6.75% - 14.50% - ceiling 18.00%
Loan Rebate Platinum Visa: Prime + 5.00% - 14.00% - ceiling 18.00%
Rates shown are variable and subject to change. Your rate may vary based on individual creditworthiness and our
underwriting standards.
The information about the costs of the card described in this application is accurate as of the date above. This
information may have changed after that date. To find out what may have changed, contact LMCU via the address
and phone number in the agreement.

